OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S
DEVELOPMENT CREDIT
AUTHORITY
AUDIT REPORT NO. 9-000-06-009-P 

SEPTEMBER 25, 2006 





WASHINGTON, DC

  Office of Inspector General


  September 25, 2006

  MEMORANDUM

  TO:        	         EGAT/DC Director, John E. Wasielewski

  FROM: 	              IG/A/PA Director, Steven H. Bernstein /s/

  SUBJECT:	            Audit of USAID’s Development Credit Authority
                       (Report No. 9-000-06-009-P)


  This memorandum transmits the final report on the subject audit. This report summarizes the
  audit work conducted at USAID offices in Washington, D.C. and at five USAID missions. In
  finalizing this report, we considered your comments on our draft report and have included them,
  in their entirety, in Appendix II.

  This report contains four recommendations to strengthen USAID’s management of its DCA
  guarantees. In your comments on our draft report, you concurred with all four recommendations
  and described planned actions to address our concerns. As a result, management decisions
  have been reached on all four recommendations.

  I want to express my sincere appreciation to you and your staff for your cooperation and
  courtesy throughout this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


     Did USAID manage its Development Credit
     Authority guarantees to ensure that selected
     intended results were achieved?

Audit Findings ................................................................................................................. 4 


     Eligibility Needs To 

     Be Clarified and Verified ............................................................................................. 6 


     Monitoring Needs 

     To Be Strengthened .................................................................................................... 9 


Evaluation of Management Comments ..................................................................…..12 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 15 


Appendix III – Summary of Audit Recommendations ...…………………….………....17 


Appendix IV – Worldwide Audit Reports Issued ………………………………………..20 

SUMMARY OF RESULTS

The Development Credit Authority (DCA) allows USAID to use credit to pursue any of
the development purposes specified under the Foreign Assistance Act. Access to credit
is a chronic problem in less-developed countries. The commercial banking sector is
often unwilling to lend funds to a particular sector or borrower, such as small and
medium enterprises, because of the perceived risks and lack of credit history. In those
instances where financing is available, lenders frequently impose burdensome collateral
requirements and short repayment periods, effectively preventing small and medium
enterprises and others from obtaining credit. To help overcome some of these lending
obstacles, USAID has used DCA partial credit guarantees to encourage commercial
banks to finance development projects that otherwise might not be funded (see page 2).

This report addresses Agency-wide issues identified during the course of five Office of
Inspector General audits conducted at selected USAID missions worldwide and
summarizes the results of these audits.1             Appendix III is a summary of audit
recommendations included in the five audits, both by type of recommendation and by
auditee. Appendix IV is a list of related audit reports issued.

These audits were designed to determine if USAID managed its DCA guarantees to ensure
that selected intended results were achieved (see page 3).

In most, but not all, cases tested USAID managed its DCA guarantees to ensure that
many selected intended results were achieved. However, USAID needs to strengthen
procedures related to (1) borrower and loan eligibility and (2) establishing and monitoring
utilization targets, and reviewing related unused subsidies (see page 4).

This report includes four recommendations to strengthen USAID’s management of its
DCA guarantees (see pages 8, 10, and 11). USAID’s Office of Development Credit
concurred with all four recommendations and described planned actions to address our
concerns. As a result, management decisions have been reached on all four
recommendations (see page 12).

Management comments are included in their entirety in Appendix II.




1
 The five USAID missions audited were Bulgaria, Guatemala, Russia, Uganda, and the Regional
Development Mission/Asia. During the course of these audits, we also issued a Memorandum
Report recommending that USAID collect approximately $435,000 in U.S. Treasury interest on its
DCA financing account and ensure that future interest is calculated and collected in a timely
manner.



                                                                                            1
BACKGROUND
Empirical studies have shown that credit to the private sector plays a crucial role in
economic growth and that developed countries enjoy higher growth rates partly because
they have more vigorous credit markets. Unfortunately, this is seldom the case in less-
developed countries, where commercial banks are often unwilling to lend to a particular
sector or borrower, such as small and medium enterprises, because of the risk involved,
the lender’s low liquidity, or the borrower’s lack of credit history. Even when credit is
available in these countries, lenders frequently impose burdensome collateral
requirements and short repayment periods, effectively discouraging or preventing small
and medium enterprises and others from obtaining credit.

Authorized by Congress in 1998 and certified by the Office of Management and Budget
(OMB) in 1999, the Development Credit Authority (DCA) provides USAID’s missions with
a tool to help overcome some of the lending obstacles that exist in many underserved
markets. This Authority, implemented through USAID’s Office of Development Credit
(ODC), allows missions to partner with local lending institutions to make resources
available to support specific development objectives. Through the use of these credit
guarantees, in which missions insure a portion of the lenders’ risk, USAID encourages
lenders to extend credit for development projects that otherwise might not receive
funding and, in doing so, stimulates new private investment and the development of local
capital markets.

DCA credit guarantees are typically designed by USAID’s missions, but managed jointly
by the issuing mission and the ODC. While several types of guarantees are available,
the majority of USAID’s guarantees are loan portfolio guarantees, which cover a pool of
loans made by a partner bank to eligible borrowers in a sector specified by USAID.
USAID also uses loan and bond guarantees. A loan guarantee covers a loan made by a
partner bank to one borrower to fund a defined activity. A bond guarantee is used to
support the issuance of various types of bonds—the funds generated from these bond
offerings are intended for activities which require substantial up-front capital
investments, such as local municipal infrastructure or utility projects.

In the OMB’s fiscal year 2005 assessment, USAID’s DCA received a rating of
“moderately effective,” ranking it among the top 44 percent of all Federal programs
assessed. Although DCA scored high in program purpose, design, and strategic
planning, the OMB determined that program results and accountability needed to be
strengthened.

As of September 30, 2005, USAID had signed 143 DCA guarantee agreements, making
nearly $1.1 billion in credit available to previously underserved markets, while generating
nearly $317 million in loans from lenders to local borrowers. The five missions audited
accounted for 26 guarantees, generating over 10,000 loans and nearly $109 million in
credit.




                                                                                         2
AUDIT OBJECTIVE
The Office of Inspector General conducted this worldwide audit of USAID’s Development
Credit Authority as part of its fiscal year 2005 and 2006 audit plans. The audit was
designed to answer the following objective:

   	 Did USAID manage its Development Credit Authority guarantees to ensure that
      selected intended results were achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                   3
AUDIT FINDINGS

In most, but not all, cases tested USAID managed its Development Credit Authority
(DCA) guarantees to ensure that many selected intended results were achieved.
However, USAID needs to strengthen procedures related to (1) borrower and loan
eligibility and (2) establishing and monitoring utilization targets, and reviewing related
unused subsidies.

In general, USAID managed its guarantees to ensure that many intended results tested
were achieved. For example, mission staff:

    •	 Conducted semi-annual site visits to partner banks and verified that borrowers
       and loan purposes met eligibility guidelines specified in the guarantee
       agreement. (USAID/Bulgaria)

    •	 Received and reviewed performance data, maintained regular contact with
       partner banks, and conducted annual visits to selected lenders. (USAID/Russia)

    •	 Conducted annual visits to and maintained regular contact with partner banks,
       and acted as liaison between the Office of Development Credit (ODC) and the
       banks. (USAID’s Regional Development Mission (RDM)/Asia)

Overall, the missions audited achieved 82 percent of the 34 intended results tested.2 As
shown in the table on the next page, two of the five missions achieved 100 percent of
the intended results tested; one achieved 86 percent; one achieved 71 percent; and the
remaining mission achieved 57 percent. A checkmark indicates that the intended result
was achieved, while an “X” indicates the result was not achieved.




2
  As detailed in the table on the next page, seven selected intended results were tested at four
missions: Guatemala, Russia, RDM/Asia, and Uganda. At USAID/Bulgaria, six selected
intended results were tested. Therefore, in total, 34 selected intended results were tested.



                                                                                              4
      Table Showing Whether Missions Achieved the Intended Results Audited

           Intended Result                    Bulgaria   Guatemala   Russia   RDM/Asia     Uganda
Utilization targets were achieved                9          9 3        9        X             X
Guarantees supported strategic
                                                 9          9          9        9             9
objectives specified in approved proposal
As evidenced by inclusion in the
mission’s most recent Annual Report,
                                                 9          9          9        9             9
guarantees contributed to achieving a
mission’s strategic objective(s)
Loans were made to qualified borrowers
for qualified projects, as specified in the      9          9          X        X             X
guarantee agreement
Activities funded by guarantees
represented the intended loan purpose            9          9          9        9             9
stipulated in the banks’ loan files
Biennial reviews were performed                  9          9          9        9             9
                              4
Utilization fees were current                    n/a        9          9        9             X
Percentage of selected intended
results achieved                                 100%       100%      86%       71%          57%

  The table above shows that the guarantees at all five missions supported the strategic
  objective(s) specified in the guarantee agreement proposals and that loans placed under
  guarantee coverage funded activities representing the intended loan purpose stipulated
  in the banks’ loan files. For example, in Uganda, a loan guarantee provided funding to a
  medium-sized fish processing company to refurbish its refrigeration equipment, allowing
  the company to export frozen and chilled fish products throughout the world. This loan
  guarantee helped the Mission meet its strategic objective of “Expanded Sustainable
  Economic Opportunities for Rural Sector Growth.”




  3
    Although USAID/Guatemala met its aggregate utilization targets, it did not meet its utilization
  target for its bond guarantee.
  4
    Utilization fees were not included as an intended result in the audit scope for USAID/Bulgaria.
  Late utilization fees were isolated to USAID/Uganda, and were not discussed in the related audit
  report (see Report No. 4-617-06-004-P, Audit of USAID/Uganda’s Development Credit Authority,
  February 13, 2006).




                                                                                                   5
                Photograph taken in October 2005 of an OIG auditor and company
                officials at a fish processing company in Kampala, Uganda that
                began exporting fish products as a result of a guaranteed loan.

Furthermore, as evidenced by inclusion in all five missions’ most recent annual reports,
the guarantees contributed to achieving one or more of the missions’ strategic
objectives. Additionally, biennial reviews were conducted in a timely manner.5

Although USAID achieved many of the intended results tested, we identified several
areas in which strengthened oversight of DCA guarantees can ensure that USAID
achieves more of its intended results. These issues are discussed in the following
sections.

Eligibility Needs To
Be Clarified and Verified

    Summary: USAID policy restricts DCA financing to those development projects
    that otherwise would not be funded. In addition, each loan portfolio guarantee
    agreement includes loan eligibility requirements. However, at three of the five
    missions audited, guaranteed loans were provided to ineligible borrowers. Also,
    one lender provided guaranteed loans to borrowers who could have obtained credit
    without the guarantee. This occurred because the banks either did not understand
    the eligibility requirements or ignored them. In addition, the ineligible loans were
    not detected because the missions did not review loan eligibility. Furthermore, the
    guidance was not clear. As a result, the amount of credit available to fund targeted
    development projects for eligible borrowers was significantly reduced.


5
 The missions’ annual reports are USAID’s principal tool for assessing program performance and
communicating this information to USAID management and external audiences, such as
Congress and the Office of Management and Budget (OMB). Biennial reviews are bank site visits
conducted by the ODC and are required by OMB Circular No. A-129, Policies for Federal Credit
Programs, and the DCA Operations Manual. Biennial reviews have a larger scope than the
annual mission bank site visits.




                                                                                            6
USAID’s Automated Directives System (ADS) 249, Development Credit Authority,
restricts DCA financing to those development projects that otherwise would not be
funded and requires that DCA financing not be used unless it is probable that the
transaction would not go forward without it. It also states that USAID should act as a
lender of last resort to bridge market imperfections, which exist where capital markets
fail to provide private sector lending to otherwise creditworthy projects or sectors.
USAID’s DCA Operations Manual further explains that this guiding principle of
“additionality” implies that the guaranteed party would not extend the loan without the
DCA guarantee. However, neither ADS 249 nor the Operations Manual clearly states
whether this additionality requirement applies to projects or activities funded by loans
issued under a loan portfolio guarantee or only to loan guarantees (for which the
agreement is approved for a specified borrower for a defined project or activity).

Federal guidance states that credit subsidies should be used to provide assistance in
overcoming capital market imperfections and that loan guarantees may make credit
available when private financial sources would not otherwise do so.6 Additionally, each
loan portfolio guarantee agreement between USAID and a partner bank includes specific
loan and borrower eligibility requirements.

However, at three of the five missions audited, partner banks issued loans, under loan
portfolio guarantees, to ineligible borrowers. For example:

      •	 A lender routinely provided loans to borrowers who could have obtained credit
         without the guarantee, including four loans to borrowers who exceeded the asset
         ceiling prescribed in the loan guarantee agreement.7 (USAID/Russia)

      •	 A lender provided a loan to a business which did not exist when the loan was
         guaranteed. The lender later identified this problem when the business defaulted
         on the loan. (USAID/Uganda)

      •	 Two lenders made guaranteed loans to borrowers exceeding the maximum
         cumulative principal ceiling specified in the guarantee agreement. Loans to one
         of these borrowers exceeded the $500,000 ceiling by more than $1.5 million.
         The ODC removed these loans from guarantee coverage subsequent to our audit
         fieldwork.8 (RDM/Asia)

Regarding the loans to borrowers who could have obtained credit without the guarantee,
ADS 249 and the Operations Manual were unclear as to whether the additionality
requirement applied to projects funded by loans issued under a loan portfolio guarantee
or only to loan guarantees. For example, while both ADS 249 and the Operations
Manual state that additionality is a DCA “guiding principle” and that DCA financing must

6
    OMB Circular No. A-129, Policies for Federal Credit Programs, November 2000.
7
  These 4 ineligible loans represented 21 percent of the 19 loans included in our audit sample of
this lender’s guaranteed loans.
8
  These 2 ineligible loans represented 17 percent of the 12 loans included in our audit sample of
the two partner banks’ active loan portfolio agreements.




                                                                                               7
not be used unless it is probable that the transaction would not go forward without it,
neither clearly articulates whether this “transaction” refers to the portfolio guarantee itself
or to each of the underlying loans. ODC attempted to ensure additionality by charging
utilization fees and tried to monitor additionality through annual questionnaires
completed by partner banks. However, additionality was not an eligibility requirement for
loans issued under a loan portfolio guarantee.

Partner banks made ineligible loans because they either did not understand the eligibility
requirements or ignored them. In addition, USAID did not detect the ineligible loans
because missions were not required to (and therefore did not) verify borrower and loan
eligibility, either at the time loans were made or during the required annual bank visits.
Instead, USAID relied on partner banks to comply with the terms of the guarantee
agreements and verified eligibility when a bank submitted a claim request for payment.

Detailed guidance related to administering USAID’s guarantees is provided in the DCA
Operations Manual. Although the Operations Manual alludes to compliance checks on
the transaction reports submitted by partner banks to missions and to the ODC for each
loan placed under guarantee coverage, it does not require that eligibility be verified at
the time loans are placed under guarantee coverage. In fact, the Operations Manual
states that loans are assumed to be approved for guarantee coverage unless USAID
contacts the guaranteed party to clarify the proper enrollment of loans under coverage.

Due to the ineligible loans, the amount of credit available to fund targeted development
projects for eligible borrowers was significantly reduced.

To ensure that partner banks are extending DCA guaranteed loans to those borrowers
the guarantees are designed to benefit, USAID needs to require missions to verify the
eligibility of loans issued under its loan portfolio guarantees and to clarify its additionality
guidance. Accordingly, we are making the following recommendations to help ensure
that partner banks are meeting eligibility requirements for loans issued under loan
portfolio guarantees.

    Recommendation No. 1: We recommend that the Director of the Office of
    Development Credit develop and issue policies and procedures to verify the
    eligibility of loans issued under loan portfolio guarantees.

    Recommendation No. 2: We recommend that the Director of the Office of
    Development Credit clarify additionality requirements, for loans issued under
    portfolio guarantees, in Automated Directives System 249 and the Development
    Credit Authority Operations Manual.




                                                                                              8
Monitoring Needs
To Be Strengthened
    Summary:        USAID policy requires that missions establish performance
    management systems to measure progress towards their intended strategic
    objectives. The DCA Operations Manual requires monitoring utilization targets,
    visiting partner banks annually, and de-obligating subsidy funds when funds will not
    be used.9 However, at several of the missions audited, guarantees were not fully
    monitored. Two missions had either not established or monitored utilization
    targets, and also had unused subsidies that could potentially be put to better use.
    Additionally, one of these missions did not conduct the required bank site visits.
    The lack of monitoring occurred because USAID guidance did not clearly articulate
    roles and responsibilities related to establishing and monitoring utilization targets or
    reviewing unused subsidies. As a result, USAID’s ability to monitor and track
    progress towards achieving intended results was limited, and funds that could be
    used to extend credit in targeted underserved sectors were not being used for their
    intended purpose.

ADS 203, Assessing and Learning, states that missions are responsible for establishing
systems to measure progress towards their intended strategic objectives. Additionally,
ADS 200, Introduction to Managing for Results, defines performance management as,
“…the systematic process of monitoring the results of activities; collecting and analyzing
performance information to track progress toward planned results; using performance
information to influence program decision-making and resource allocation; and
communicating results achieved, or not attained, to advance organizational learning and
tell the Agency’s story.”

However, at several of the missions audited, guarantees were not fully monitored, as
discussed in the following sections.

Utilization targets were not always established or monitored – The DCA Operations
Manual discusses both ODC and mission monitoring responsibilities. It states that
although monitoring is a coordinated effort between the mission and the ODC, missions
are solely responsible for development monitoring while the ODC and missions share
responsibility for financial monitoring.        The Operations Manual also identifies
circumstances in which the ODC should contact the mission to address lack of loan
portfolio guarantee utilization. Additionally, the Operations Manual requires missions to
review utilization data annually, in preparation for the annual mission visit to partner
banks, and explains mission responsibilities for conducting and reporting on these
annual bank site visits.

Nevertheless, at two of the five missions audited, guarantees were not fully monitored.




9
  Utilization refers to the number and dollar amount of loans disbursed by a partner bank under a
loan portfolio guarantee, and to funds disbursed under a bond guarantee.



                                                                                               9
For example:

     •	 One mission had not established utilization targets for any of its guarantees, and
        therefore, could not determine if its partner banks were making progress toward
        planned results. Additionally, the Mission did not conduct the required annual
        bank site visits. (USAID/Uganda)

     •	 One mission did not use its utilization targets for two of its three guarantees to
        monitor progress or take action on under-utilization in a timely manner. In
        addition, the Mission had not established targets for its third guarantee and the
        guarantee had not been utilized. Although both Mission and ODC staff
        conducted site visits to the partner bank, no remedial action was taken to resolve
        collateral problems identified as the cause for the lack of utilization. (RDM/Asia)

The lack of monitoring occurred because USAID guidance did not clearly articulate roles
and responsibilities related to establishing and monitoring utilization targets or reviewing
unused subsidies. Furthermore, at one mission, staff focused on using its guarantees by
the end of the agreement period rather than by interim dates and stated that it was not
aware that bank site visits needed to be conducted. Another mission did not have
procedures to detect and resolve performance issues.

The underlying reason for the confusion over establishing and monitoring utilization
targets was that DCA guidance does not clearly articulate these roles and
responsibilities. For example, although the Operations Manual states that missions
need to review the most current utilization data in preparation for their annual bank site
visit, it does not require missions to compare actual utilization against targets or to take
action to resolve utilization issues discussed during the site visit. Instead, it indicates
that the ODC would contact missions to address under-utilization, apparently shifting
responsibility from the missions to the ODC. In addition, the Operations Manual does
not state who is responsible for establishing targets, although it does state that ODC will
verify the targets semiannually.

The lack of clearly delineated monitoring roles and responsibilities hampered USAID’s
ability to fully monitor its guarantees. As a result, USAID’s ability to track progress
towards achieving intended results was limited. Accordingly, we are making the
following recommendation to strengthen the monitoring of USAID’s guarantee utilization.

     Recommendation No. 3:        We recommend that the Director of the Office of
     Development Credit clarify roles and responsibilities related to establishing and
     monitoring guarantee utilization targets in its Development Credit Authority
     guidance.

Unused subsidies were not always reviewed – The DCA Operations Manual states
that if either all or a portion of the subsidy funds in the DCA program account will not be
used, the mission should consider de-obligating the funds.10 This de-obligation allows

10
   DCA subsidies represent the estimated long-term cost to the U.S. Government of a loan
guarantee, including claim payments on any defaulted loans. Subsidies are calculated using OMB
risk models and are set aside, i.e., obligated, in a holding account until the guarantee is utilized.



                                                                                                  10
the mission to use the subsidy funds for another guarantee.

Reviewing the unused subsidies should be an integral component of monitoring
guarantee utilization. However, two of the five missions audited had unused subsidies
that could potentially be put to better use. For example:

   •	 One mission had set aside $535,000 in subsidy funds, of which approximately
      only 34 percent had been used for its guarantees. In addition, it was becoming
      increasingly difficult for the partner banks to extend credit under these
      guarantees due to the expiration date of the guarantee agreement. (RDM/Asia)

   •	 Another mission had unused subsidies totaling more than $105,000, which were
      not expected to be used for the original guarantee. (USAID/Uganda)

The unused subsidies had not been de-obligated because one mission had not reviewed
its unused subsidies while the second mission had not completely understood the de-
obligation process.

As a result, funds that could be used to extend credit in targeted underserved markets
were not being used for their intended purpose. To ensure that subsidies do not remain
unnecessarily idle, we are making the following recommendation.

   Recommendation No. 4: We recommend that the Director of the Office of
   Development Credit issue guidance that missions review their unused subsidies,
   as part of the ongoing monitoring process, to determine whether they can be de-
   obligated and put to better use.




                                                                                     11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID’s Office of Development Credit (ODC)
concurred with all four recommendations and described planned actions to address our
concerns. As a result, management decisions have been reached on all four
recommendations.

To address Recommendation No. 1, during fiscal year 2007, ODC plans to expand its
biennial review procedures to include a broader sample of loans to test for a limited
number of eligibility requirements. More specifically, the biennial reviews will include a
larger quantity of loans than currently checked, with the eligibility criteria for each review
limited to a few clauses of a guarantee agreement’s loan eligibility definitions.
Accordingly, a management decision has been reached on this recommendation.

To address Recommendation No. 2, during fiscal year 2007, ODC plans to clarify
additionality requirements in Automated Directives System 249, the Development Credit
Authority (DCA) Operations Manual, and in its DCA Monitoring Plan Template—which is
customized for each proposed DCA guarantee. Accordingly, a management decision
has been reached on this recommendation.

To address Recommendation No. 3, during fiscal year 2007, ODC plans to more clearly
define mission and ODC procedures regarding establishing and managing utilization
targets in revisions to the DCA Operations Manual and DCA Monitoring Plan referred to
in the paragraph above. Accordingly, a management decision has been reached on this
recommendation.

To address Recommendation No. 4, during fiscal year 2007, ODC plans to issue
guidance regarding mission review of unused subsidies. This guidance will be linked to
the utilization target procedures described in the paragraph above. Accordingly, a
management decision has been reached on this recommendation.

Management comments are included in their entirety in Appendix II.




                                                                                           12
                                                                                APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General conducted audits at five USAID missions in accordance
with U.S. generally accepted government auditing standards. These audits were designed
to determine if USAID managed its Development Credit Authority (DCA) guarantees to
ensure that selected intended results were achieved.

In planning and performing these audits, the effectiveness of internal controls related to
DCA guarantees was assessed. Pertinent internal controls were identified, such as (1)
procedures for managing and monitoring DCA guarantees, (2) partner banks’ procedures
regarding DCA loan approvals and payments, and (3) missions’ annual self-assessments
of internal controls in accordance with the Federal Managers’ Financial Integrity Act.
Relevant criteria included USAID’s Automated Directives System 249, Development Credit
Authority; USAID’s Office of Development Credit’s DCA Operations Manual; and Office of
Management and Budget Circular No. A-129, Policies for Federal Credit Programs.

In answering the audit objective for four of the five mission audits, the audit scope included
mission guarantees as of September 30, 2005. However, due to the timing of the audit
conducted at USAID/Bulgaria—it was the first of the five audits conducted—its audit
scope included DCA guarantees as of September 30, 2004, rather than 2005. The five
missions audited accounted for a total of 26 guarantees—24 loan portfolio guarantees, 1
bond guarantee, and 1 loan guarantee. We performed audit work on 14 of these 26
guarantees. There were no prior audit findings affecting the areas reviewed in these audits.

The following selected intended results were reviewed to determine whether:

      •	 Utilization targets were achieved.

      •	 Guarantees supported strategic objectives specified in the proposal approved by
         USAID’s Credit Review Board.

      •	 Guarantees contributed to achieving one or more of the mission’s strategic
         objectives, as evidenced by inclusion in the mission’s most recent annual report.

      •	 Loans were made to qualified borrowers for qualified projects, as specified in the
         guarantee agreement.

      •	 Activities funded by guarantees represented the intended loan purpose stipulated in
         the partner banks’ loan files.

      •	 Biennial reviews were appropriately performed.

      •	 Utilization fees were current.11

11
     This intended result was not included in the scope at USAID/Bulgaria.



                                                                                           13
                                                                                APPENDIX I


This report summarizes the audit work conducted at USAID offices in Washington, D.C.
and at five USAID missions. Audit fieldwork was conducted from January 2005 to February
2006 at:

   •	 USAID/Washington from January 2005 to May 2005 and from July 5 to August 16,
      2005, and at USAID/Bulgaria—in Sofia and at various bank office locations and
      borrowers’ sites in Bulgaria—from June 2 to June 29, 2005.

   •	 USAID/Regional Development Mission/Asia—at the Mission’s country
      representative office in Vietnam and at various bank office locations and borrowers’
      sites throughout Vietnam—from October 4 to October 21, 2005.

   •	 USAID/Guatemala—in Guatemala City, at the headquarters of two lenders in
      Guatemala City, and at various bank office locations and borrowers’ sites
      throughout Guatemala—from October 11 to October 28, 2005.

   •	 USAID/Uganda–-in Kampala and at various participating financial institutions in
      Kampala—from October 17 to October 28, 2005.

   •	 USAID/Russia—in Moscow and at the headquarters of two lenders, in Moscow and
      Rostov-an-Don—from January 11 to February 3, 2006.

Methodology
To answer the audit objective, we performed detailed reviews of 14 of the 26 guarantees
signed by the five missions at the time of our audits. The five missions were judgmentally
selected based on a variety of factors, including the number, dollar, and type of guarantees.
In doing so, we conducted interviews with mission staff, managers and loan officers at
partner banks, and borrowers. In addition, we performed detailed reviews of 134
judgmentally selected loan files at partner banks’ headquarters and branch offices.

We also conducted interviews with mission staff regarding interaction with USAID’s Office
of Development Credit, bank and borrower site visits, and other monitoring activities. We
reviewed pertinent guarantee agreements and loan documentation maintained at mission
offices and partner banks, and conducted over 50 site visits to selected borrower locations
to observe activities funded by the DCA guaranteed loans. Additionally, we conducted
interviews with USAID/Washington staff in both the Office of Development Credit and
Office of Financial Management/Loan Management Division.

To answer the audit objective, we established the following materiality thresholds:

   •	 If at least 90 percent of the selected intended results were achieved, the answer to
      the audit objective would be positive.

   •	 If at least 80 percent, but less than 90 percent, of the selected intended results were
      achieved, the answer to the audit objective would be qualified.

   •	 If less than 80 percent of the selected intended results were achieved, the answer
      to the audit objective would be negative.



                                                                                          14
                                                                                APPENDIX II 





MEMORANDUM

TO:                   IG/A/PA, Steven H. Bernstein

FROM:                 AA/EGAT, Jacqueline E. Schafer /s/

THRU:                 EGAT/DC, John E. Wasielewski /s/

SUBJECT:              Management Comments for Draft Report on Audit of USAID’s
                      Development Credit Authority (Report No. 9-000-06-XXX-P)

        The USAID Office of Development Credit (EGAT/DC) appreciates the opportunity to
respond to the draft audit report. EGAT/DC accepts the audit report’s recommendations
and will take action to implement the recommendations. Furthermore, we request IG/A/PA
acceptance of our management decision in response to the four recommendations outlined
below.

         Recommendation No. 1: EGAT/DC accepts this recommendation to develop and
issue policies and procedures to improve the verification of loan eligibility issued under loan
portfolio guarantees. EGAT/DC acknowledges that three out of the five Mission-based
audits of DCA guarantees identified several loans that were ineligible for DCA guarantee
coverage, e.g., borrower asset sizes and loan amounts that exceeded limits established in
the respective guarantee agreements. However, EGAT/DC attests that it has more precise
and in-depth procedures in place to confirm loan eligibility prior to the payment of a claim in
case of a loan default, which is more critical in terms of USAID risk exposure.
Nevertheless, it is important to improve loan eligibility to further ensure optimal use of loan
portfolio guarantees for borrowers intended to benefit from the extension of credit via a
DCA guarantee. In FY2007, EGAT/DC will further expand biennial review procedures to
include a broader sample of loans to test for a limited number of eligibility requirements.
More specifically, the biennial review will include a larger quantity of loans than currently
checked, but the eligibility criteria for each review will be limited to a few clauses of a
guarantee agreement’s loan eligibility definitions.

        Recommendation No. 2: EGAT/DC accepts this recommendation to clarify
additionality requirements for loan portfolio guarantees in ADS 249 as well as in supporting
guidelines developed by EGAT/DC. These guidelines include but are not limited to a
revision of the DCA Operations Manual in FY2007, as well as an updated template for
the DCA Monitoring Plan to be customized for each proposed DCA guarantee in
FY2007. In the ADS 249 revision, the aforementioned clarification will more clearly
describe that loan portfolio guarantee additionality is intended to be realized at an
aggregate level and not on a loan-by-loan basis. In other words, objectives related to
ensuring additionality for a loan portfolio guarantee should pertain to widening access to
credit to a new group of potential borrowers. This objective will be measured via more



                                                                                            15
                                                                             APPENDIX II


standardized review procedures to be conducted by EGAT/DC throughout the life of the
guarantee. These revised procedures will be reflected in the updated versions of the
Operations Manual and Monitoring Plan.

       Recommendation No. 3: EGAT/DC accepts this recommendation to clarify roles
and responsibilities between EGAT/DC and Missions as they pertain to the formation and
management of utilization targets. In the two cases mentioned in the draft audit report in
which missions were not actively managing utilization targets, it should be noted that both
missions began to actively use utilization targets in FY2006. Procedures for EGAT/DC and
Mission will be more clearly defined in the revised version of the DCA Operations Manual
and the DCA Monitoring Plan.

        Recommendation No. 4: EGAT/DC accepts this recommendation to issue more
precise guidance on how and when EGAT/DC should advise USAID missions to review
unused subsidies related to under-utilized DCA guarantees. This guidance will be closely
linked to the utilization target procedures mentioned in Recommendation No. 3. Further,
the DCA Operations Manual will provide more detailed instructions on the timing and extent
of EGAT/DC recommendations for missions to review unused subsidies, keeping in mind
that the termination and/or reduction of DCA guarantee facilities is often considered as a
last resort when there is no possible expectation that the guarantee can be revitalized.

        The USAID Office of Development Credit would like to express its appreciation to
the USAID Office of Inspector General for its acceptance of the management decisions
pertaining to these four recommendations. Please do not hesitate to ask for additional
information. EGAT/DC would like to thank you and your staff for your hard work in
developing an extremely useful report that will enhance USAID monitoring compliance of its
DCA guarantees.




                                                                                        16
                                                                                 APPENDIX III


                 SUMMARY OF AUDIT RECOMMENDATIONS
                       Table III-1: Audit Recommendations by Type

                                                Mission/Operating Unit Audited

                                  USAID/              RDM/
       Recommendation                      Bulgaria           Guatemala    Uganda      Russia
                                   W12                Asia
Calculate and collect
interest from the U.S.
                                     9
Treasury on USAID’s DCA
financing account
Ensure that future interest is
calculated and collected in a        9
timely manner
Develop an action plan to
                                                                 9
utilize a bond guarantee
Establish utilization targets
and/or evaluate progress                                9                        9
toward reaching targets
Establish performance
indicators in the Mission’s                                      9
Performance Monitoring Plan
Obtain performance
information on a bank-to                                                                  9
bank loan
Review loan and borrower
                                                        9                                 9
eligibility
Restrict loans to qualified
borrowers who would not
                                                                                          9
otherwise qualify for other
loans offered by the lender
Conduct periodic site visits to
                                                                                 9
banks and borrowers
Document, track, and
promptly resolve significant
                                                        9
problems identified during
bank site visits
De-obligate funds for unused
or underused loan portfolio
guarantees so that the funds                            9                        9
can be used for another
guarantee
Identify and address banks’
needs for technical                                     9
assistance
Inform banks to provide
sufficient information to the
Mission for loans made                                                           9
under a loan portfolio
guarantee


12
     USAID/W refers to USAID/Washington.



                                                                                          17
                                                                                   APPENDIX III


        Table III-2: Recommendations by Mission/Operating Unit Audited
Mission/
Operating                                                                       Status
                            Recommendation
  Unit                                                                   as of June 30, 2006
 Audited
             9   Calculate and collect interest from the U.S.       Management decision reached
USAID/W
                 Treasury on its guarantee financing account
Report No.
9-000-05
             9   Ensure that future interest is calculated and      Management decision reached
001-S
                 collected in a timely manner

Bulgaria
Report No.
9-183-06         No recommendations
002-P

             9   Establish cumulative utilization targets for its   Management decision reached
                 student loan portfolio guarantee; develop
                 and implement procedures to regularly report
                 on utilization

             9   Use established cumulative utilization targets     Management decision reached
                 to monitor and evaluate the performance of
                 loan portfolio guarantees

             9   Document, track, and promptly resolve              Management decision reached
RDM/Asia         significant problems    afftecting  loan
Report No.       guarantee performance identified in bank
5-440-06         site visits
004-P
             9   Examine its SME loan portfolio guarantees          Management decision reached
                 to determine if subsidy funds can be
                 deobligated and put to better use

             9   Periodically review eligibility of loans under     Management decision reached
                 its loan portfolio guarantees

             9   Establish a plan of action that identifies the     Management decision reached
                 areas where its partner banks need technical
                 assistance and includes milestones to
                 provide the needed technical assistance
             9   Establish     achievable     and      realistic    Final action taken
                 performance indicators and targets in its
Guatemala
                 Performance Monitoring Plan
Report No.
1-520-06
             9   Request an action plan that includes a             Final action taken
002-P
                 timeline of necessary steps to utilize its bond
                 guarantee




                                                                                               18
                                                                                    APPENDIX III


Table III-2, Continued: Recommendations by Mission/Operating Unit Audited
Mission/
Operating                                                                        Status
                            Recommendation
  Unit                                                                    as of June 30, 2006
 Audited
             9   Develop interim utilization goals for loan          Management decision reached
                 portfolio guarantees to better monitor and
                 evaluate their progress

             9   Develop procedures (including loan file             Management decision reached
                 reviews) to require and document periodic
                 site visits to banks and borrowers

             9   Provide banks with details of what loan             Management decision reached
Uganda
                 information—especially related to eligibity
Report No.
                 and collateral—should be included with the
4-617-06
                 notification letter sent to the Mission for loans
004-P
                 made under a loan portfolio guarantee

             9   De-obligate $100,000 in subsidy funds               Management decision reached
                 associated with the reduction in the loan
                 portfolio amount for one inactive bank

             9   De-obligate $5,317 in subsidy funds related         Management decision reached
                 to the unused loan guarantee for one inactive
                 bank
             9   Modify its standard loan portfolio guarantee        Management decision reached
                 agreement to include provisions requiring
                 that guaranteed loans be restricted to
                 qualified borrowers who would not qualify for
Russia           other loans offered by the lender
Report No.
8-118-06     9   Increase the extent of testing performed            Management decision reached
002-P            during site visits in verifying that borrowers
                 meet eligibility requirements

             9   Obtain performance information for its bank-        Final action taken
                 to-bank guaranteed loan




                                                                                                19
                                                                     APPENDIX IV 




                WORLDWIDE AUDIT REPORTS ISSUED 

The following six reports were issued as a part of the worldwide audit of USAID’s
Development Credit Authority.      They are available at USAID’s website at
http://www.usaid.gov/oig/public/aud_usaid.htm.


Report No. 9-000-05-001-S, Memorandum Regarding the Calculation and Collection of
U.S. Treasury Interest on the Development Credit Authority Guarantee Financing
Account, July 21, 2005.

Report No. 9-183-06-002-P, Audit of USAID/Bulgaria’s Development Credit Authority,
October 25, 2005.

Report No. 1-520-06-002-P, Audit of USAID/Guatemala’s Development Credit Authority,
January 11, 2006.

Report No. 4-617-06-004-P, Audit of USAID/Uganda’s Development Credit Authority,
February 13, 2006.

Report No. 5-440-06-004-P, Audit of USAID Regional Development Mission/Asia’s
Development Credit Authority, May 11, 2006.

Report No. 8-118-06-002-P, Audit of USAID/Russia’s Development Credit Authority,
May 22, 2006.




                                                                                20
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
